                 

                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    New Procedures Aided
                    Region 5 in Reducing
                    Unliquidated Obligations
                    Report No. 13-P-0145              February 13, 2013




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Heriberto Ibarra
                                                   Janet Kasper
                                                   Madeline Mullen
                                                   Nicole Pilate
                                                   Shannon Schofield




Abbreviations

CFR           Code of Federal Regulations
EPA           U.S. Environmental Protection Agency
FMFIA         Federal Managers’ Financial Integrity Act
FY            Fiscal year
IA            Interagency agreement
OARM          Office of Administration and Resources Management
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
OMB           Office of Management and Budget
RMDS          Resources Management Directives System
ULO           Unliquidated obligation




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0145
                                                                                                       February 13, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review               New Procedures Aided Region 5 in Reducing
The U.S. Environmental               Unliquidated Obligations
Protection Agency Office of
Inspector General conducted           What We Found
this audit to determine whether
Region 5 is timely liquidating       At the beginning of FY 2011, EPA’s system for reviewing ULOs indicated that
grant, interagency agreement,        Region 5 had over $1.7 billion in grant, contract, and interagency agreement
and contract obligations.            ULOs. During FY 2011, Region 5 liquidated over $1 billion in ULOs, leaving
                                     about $645 million in ULOs remaining at the end of FY 2011. Our review found
Prior OIG reports have               an additional $402,445 that, in our opinion, could have been deobligated during
identified concerns with             FY 2011. Region 5 deobligated the funds in FY 2012.
obligations not being liquidated
when no longer needed. EPA           Several factors impacted Region 5’s ability to liquidate funds, including obtaining
developed procedures to              the documentation necessary to close out funding agreements. For three funding
strengthen internal controls         agreements, valued at $616,976, delays in obtaining closeout documentation
over unliquidated obligations.       delayed deobligation of funds by as many as 10 years. While two contracts were
In fiscal year 2011, the Office of   deobligated, Region 5 is still working to obtain documentation from the other
the Chief Financial Officer          recipient. Obligations can also remain unliquidated for many years because of
instituted a database to             funding recipient delays in starting or completing projects. Some funding
improve the consistency in           agreements in our sample had been inactive for more than 4 years. However, in
reviewing and managing ULOs.         each case, Region 5 provided evidence that the funds were still needed.
Our review focused on whether
the corrective actions taken          Recommendations and Planned Agency Corrective Actions
were effective.
                                     We recommend that the EPA Region 5 Administrator take action to deobligate
This report addresses the            the funds for the remaining closed grant (Town of Scott). We also recommend
following EPA Goal or                that the Chief Financial Officer and the Assistant Administrator for Administration
Cross-Cutting Strategy:              and Resources Management address issues related to funding agreements
                                     where the obligation is inactive or open with no activity for more than 180 days.
 Strengthening EPA’s                Region 5 took action to close the Town of Scott grant in November 2012. EPA
  workforce and capabilities         agreed with the other recommendations.

                                      Noteworthy Achievements

                                     Region 5 deobligated over $1 billion in grants, contracts, and interagency
                                     agreements in FY 2011. The region took action in FY 2012 to deobligate the
                                     funds from agreements where the grant period had expired, with the exception of
For further information, contact     one agreement where EPA is still working with the recipient to obtain
our Office of Congressional and
                                     documentation to close the grant. During the course of our audit, Region 5 also
Public Affairs at (202) 566-2391.
                                     took action to remind staff of the procedures for elevating issues preventing
The full report is at:               deobligation of funding agreements to managers’ attention.
www.epa.gov/oig/reports/2013/
20130213-13-P-0145.pdf               The Office of the Chief Financial Officer implemented the ULO database in
                                     FY 2011 to improve consistency in reviewing and managing ULOs. The database
                                     provides the capability to proactively monitor ULOs and eliminates the use of
                                     manual spreadsheet reports. During interviews, users of the database stated that
                                     it was an excellent replacement for the previous review process.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                        February 13, 2013

MEMORANDUM

SUBJECT:	 New Procedures Aided Region 5 in Reducing Unliquidated Obligations
          Report No. 13-P-0145


FROM:	         Arthur A. Elkins, Jr.


TO:	           Susan Hedman
               Regional Administrator, Region 5

               Barbara J. Bennett       

               Chief Financial Officer


               Craig Hooks
               Assistant Administrator
               Office of Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General of the U.S.
Environmental Protection Agency. This report contains findings that describe the problems the
OIG has identified and corrective actions the OIG recommends.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required.
The Agency should track corrective actions not implemented in the Management Audit Tracking
System. We have no objections to the further release of this report to the public. This report will
be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
assistant inspector general for audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper, director, Contracts and Assistance Agreements Audits, at (312) 886-3059 or
kasper.janet@epa.gov.
New Procedures Aided Region 5	                                                                                               13-P-0145
in Reducing Unliquidated Obligations


                                    Table of Contents

Chapters
   1	    Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                2     

                 Scope and Methodology ..............................................................................               3     


   2	    Region 5 Reduced Unliquidated Obligations by Over $1 Billion ...................                                           5


                 EPA Policies Require ULO Reviews ...........................................................                       5

                 EPA Could Have Deobligated Additional Funds on Expired Projects .........                                          5

                 Closeout Difficulties Were Not Elevated for Effective Resolution ................                                  7


   3	    Overall Closeout Goals Met But Documentation Delayed Certain

         Deobligations......................................................................................................        8


                 Federal Regulations Encourage Timely Closeouts .....................................                               8

                 EPA Did Not Always Take Action on Delayed Closeouts ............................                                   8

                 Required Closeout Documents Were Not Obtained and Funds 

                    Could Not Be Deobligated ....................................................................                  10 

                 Recommendation ........................................................................................           10     

                 Agency Comments and OIG Evaluation ......................................................                         10 


   4	    Recipients Can Take Many Years to Use Funds .............................................                                 11 


                 Inactive Means No Activity for 6 Months or More ........................................                          11 

                 Obligations Can Linger for Years With No Drawdowns ...............................                                12 

                 ULO Database Reports Could be Improved ................................................                           13 

                 Recommendations ......................................................................................            13     

                 Agency Comments and OIG Evaluation ......................................................                         14 


   Status of Recommendations and Potential Monetary Benefits..............................                                         15



Appendices
   A	    Agency Comments to Draft Report ..................................................................                        16 


   B     D
         	 istribution .........................................................................................................   18 

                                  Chapter 1

                                   Introduction
Purpose
            An unliquidated obligation is described as an obligation or liability that has not
            been expended or liquidated. In fiscal year 2011, the U.S Environmental
            Protection Agency Office of the Chief Financial Officer released new policies and
            procedures and launched a new database to improve and simplify the ULO review
            process. The EPA Office of Inspector General conducted this audit to determine if
            Region 5 is timely liquidating grant, interagency agreement, and contract
            obligations. Region 5 was selected for review because of its large volume of
            unliquidated obligations and the large number of grants with no financial activity
            for more than 18 months.

Background
            The Federal Managers’ Financial Integrity Act of 1982 establishes overall
            requirements with regard to internal control and requires the agency head to
            annually evaluate and report on the controls and financial systems that protect the
            integrity of federal programs. Internal controls provide reasonable assurance of
            effective and efficient operations, reliable financial reporting, and compliance
            with applicable laws and regulations. The Office of Management and Budget
            Circular A-123, Management’s Responsibility for Internal Control, implements
            FMFIA. This circular requires programs to operate and use resources “consistent
            with agency missions, in compliance with laws and regulations, and with minimal
            potential for waste, fraud, and mismanagement.”

            EPA’s ULOs and management of grants that are eligible for closeout have caused
            the OIG, U.S. Government Accountability Office, and Congress to raise concerns.
            Prior OIG audits identified ULOs as an area where EPA can improve its ability to
            identify and deobligate unneeded funds and improve its OMB Circular A-123
            ULO review process. Additionally, Congress has rescinded millions of dollars of
            EPA appropriations. These rescissions have forced EPA to take a closer look at its
            ULOs and the close out of its grants, contracts, and IAs.

            To implement FMFIA and OMB Circular A-123 requirements and to address
            OIGs concerns, EPA developed several policies and procedures:

               	 EPA’s Management Integrity Program – FY 2011 Annual Guidance,
                  Internal Controls Over Financial Activities, requires all Assistant
                  Administrators and Regional Administrators to develop plans for staffing
                  the A-123 ULO reviews and training the reviewers. By October 8, 2011,

13-P-0145                                                                                     1
                   Assistant and Regional Administrators were required to submit a separate
                   year-end ULO certification to verify that unneeded funds were deobligated
                   by the end of FY 2011. The certification must be supported by a review of
                   the ULO desktop tool.

               	 OCFO Policy Procedure RMDS 2520-03, Standard Operating
                  Procedures: Deobligating Unliquidated Obligations, provides guidance
                  for the deobligation of grants, contracts, and IAs. It defines a valid
                  obligation as one for which appropriated funds are still available and an
                  actual need still exists within the life of that appropriation. An inactive
                  obligation is an obligation where there has been no activity for 6 months
                  (180 days).

               	 OCFO Policy RMDS 2520-03-P1, Responsibilities for Reviewing
                  Unliquidated Obligations, establishes procedures for managing ULOs
                  under Agency funds-out IAs; assistance agreements including grants,
                  cooperative agreements, and fellowships; contracts; travel; and
                  miscellaneous items. This policy requires all responsible parties in EPA
                  regions to conduct complete periodic but at least annual reviews of all
                  current and prior year ULOs to ensure that all recorded obligations are still
                  valid and properly documented.

            EPA’s management of ULOs was one of the reasons the OIG identified efficient
            use of available funds as an Agency weakness. In an April 2012 memorandum to
            the Chief Financial Officer, the OIG recommended that the efficient use of funds
            continue as an Agency-level internal control weakness until the ULO policies and
            procedures EPA developed are effectively implemented and assessed. Sound
            funds management is critically important, particularly as budgetary pressures
            continue to increase. When funds are not deobligated, those funds cannot be used
            on other environmental projects and are more susceptible to fraud, waste, and
            mismanagement.

Noteworthy Achievements
            Region 5 deobligated over $1 billion in grants, contracts, and IAs in FY 2011.
            The region took action in FY 2012 to deobligate the funds from agreements where
            the grant period had expired, with the exception of one agreement where EPA is
            still working with the recipient to obtain documentation to close the grant. During
            the course of our audit, Region 5 also took action to remind staff of the
            procedures for elevating issues preventing deobligation of funding agreements to
            managers’ attention.

            The Office of the Chief Financial Officer implemented the ULO desktop tool in
            FY 2011 to improve consistency in reviewing and managing ULOs. The ULO
            tool provides the capability to proactively monitor ULOs and eliminates the use of
            manual spreadsheet reports. It includes visual review indicators, the history of the

13-P-0145                                                                                       2
            review, results of staff review, and the ability to export data. During interviews,
            users of the ULO tool stated that it was an excellent replacement for the previous
            review process and improved monitoring and tracking capabilities.

Scope and Methodology
            We conducted this performance audit from February 2012 to November 2012 in
            accordance with generally accepted government auditing standards issued by the
            comptroller general of the United States. Those standards require that we plan and
            perform the audit to obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on our audit objective.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objective.

            To determine if Region 5 is timely liquidating grant, IA, and contract obligations,
            we obtained and verified the FY 2011 universe of Region 5 grant, IA, and
            contract ULOs using the ULO tool. We judgmentally selected 27 samples from
            the universe. A judgmental sample is a nonrandom sample selected based on the
            opinion of the auditors. The sampled ULOs included at least one grant, IA, and/or
            contract from each reason code with an obligation of more than $0 at the end of
            FY 2011. The reason code describes the result of the staff’s reviews of the ULO,
            including whether the obligation was still valid or should be deobligated.

            We interviewed Region 5 project officers, contract officers, and grant specialists
            with oversight responsibilities for the 27 samples to discuss how they review
            ULOs. We compared their processes to EPA policy. We reviewed files for each
            sample to identify why the ULO was not deobligated and to verify that EPA had
            adequate support for not deobligating the funds. EPA managers in Region 5, the
            Headquarters Interagency Agreement Shared Service Center, and the Region 10
            Grants and Interagency Agreements Unit were interviewed to discuss root causes
            for audit findings. The Shared Service Centers in Region 10 and headquarters are
            responsible for administering IAs nationwide, including Region 5.

            We obtained grant, IA, and contract information from several EPA data systems:

                  Integrated Grants Management System
                  Financial Data Warehouse
                  Compass Data Warehouse
                  FY 2011 ULO desktop tool

            The information systems were adequate to support our analysis of ULOs and each
            of our conclusions was reinforced by corroborating information found in the files.

            We evaluated Region 5’s internal controls regarding ULOs. We determined that
            the internal controls were sufficient to reasonably assure effective and efficient


13-P-0145                                                                                         3
            operations, reliable financial reporting, and compliance with applicable laws and
            regulations.

            We reviewed guidance documents and previous U.S. Government Accountability
            Office and EPA OIG reports relevant to our work. We also reviewed FY 2011
            FMFIA and A-123 assurance letters from EPA Region 5, Region 10, OCFO, and
            the Office of Administration and Resources Management. The OCFO’s assurance
            letter noted that there were no deficiencies or exceptions found during its FY
            2011 test of internal controls regarding ULOs. However, Region 5, Region 10,
            and the Office of Administration and Resources Management all noted
            deficiencies or issues related to ULOs. These deficiencies included:

               	 Inability to deobligate funds which were under the control of the Office of
                  Regional Counsel, Region 5
                Lack of followup on deobligation requests
                Lack of supporting documentation for justification codes selected in the
                  ULO tool 

                Inclusion of some closed and deobligated funds in the ULO tool 


            Prior Audit Coverage

            Prior EPA OIG reports identified ULOs as an area where EPA can improve its
            ability to identify and deobligate unneeded funds and improve its internal
            controls. From FY 2008 through FY 2011, the OIG issued six reports that
            addressed ULOs:

               	 Report No. 11-1-0069, EPA Did Not Fully Comply With Guidance
                  Regarding OMB Circular A-123 Unliquidated Obligation Reviews,
                  January 19, 2011
                Report No. 11-P-0170, EPA Region 3 Reduced Unliquidated Obligations
                  Under Water Program Assistance Agreements, March 15, 2011
                Report No. 11-P-0228, EPA Should Reduce Unliquidated Obligations
                  Under Expense Reimbursement Grants, May 16, 2011
               	 Report No. 09-P-0241, EPA Has Improved Efforts to Reduce Unliquidated
                  Obligations in Superfund Cooperative Agreements, But a Uniform Policy
                  Is Needed, September 22, 2009
               	 Report No. 09-P-0086, EPA Should Strengthen Internal Controls over
                  Interagency Agreement Unliquidated Obligations, January 26, 2009
               	 Report No. 08-P-0265, EPA Should Continue Efforts to Reduce 

                  Unliquidated Obligations in Brownfields Pilot Grants, 

                  September 16, 2008 





13-P-0145                                                                                       4
                                  Chapter 2

                 Region 5 Reduced Unliquidated 

                  Obligations by Over $1 Billion 

            At the beginning of FY 2011, the ULO tool indicated that Region 5 had over $1.7
            billion in grants, contracts, and interagency agreement ULOs. Of the $1.7 billion,
            over $1 billion in ULOs was liquidated during FY 2011, leaving about $645
            million in ULOs remaining at the end of FY 2011. A judgmental sample found an
            additional $402,445 in expired obligations in FY 2011 that the OIG believes
            could have been deobligated. EPA policy requires annual reviews of ULOs and
            requires resource officials to certify that appropriate deobligations have been
            made on regionally administered contracts, grants, and IAs. Regional
            management stated that our sample included unusual circumstances or anomalies.
            Region 5 took action during FY 2012 to liquidate all of the sample transactions
            identified in this chapter and to remind staff of the process for elevating issues
            relating to the deobligation of funds to managers’ attention. When funds on
            expired projects are not deobligated, those funds cannot be used on other
            environmental projects.

EPA Policies Require ULO Reviews
            EPA Policy RMDS 2520-03-P1, Responsibilities for Reviewing Unliquidated
            Obligations, effective October 1, 2010, states that the regional senior resource
            official is responsible for ensuring that staff review all ULOs administered by
            their region. The senior resource official must certify that “appropriate
            deobligation has been made on Regional travel and small purchases, as well as
            regionally-administered contracts, grants, and IAs.”

            EPA Policy RMDS 2520-03, Deobligating Unliquidated Obligations, discusses
            reviews of unliquidated obligations that are required by law. EPA must annually
            ensure that all recorded obligations are still valid and properly documented.

EPA Could Have Deobligated Additional Funds on Expired Projects
            In FY 2011, Region 5 deobligated approximately $45 million in contract, grant,
            and IA obligations. We found an additional $402,445 in expired obligations, less
            than 1 percent of total deobligations, which the OIG believes Region 5 could have
            deobligated. During its FY 2011 review of obligations, Region 5 did not
            deobligate 3 of the 27 grants, IAs, and contracts in our sample even though the
            funds were no longer needed (table 1). Region 5 could have deobligated the funds
            from the 3 agreements because the projects had expired between 1 to 4 years prior
            to the end of FY 2011. EPA did deobligate the funds in FY 2012.



13-P-0145                                                                                      5
            Table 1: Details of sampled grant, IA, and contract that have expired
                                            Project       Unliquidated
                                                                              Amount as of
              Project name       Type     period end      amount as of
                                                                                July 2012
                                              date          9/30/2011
             Ecorse MI         Grant       09/30/2007        $309,192.75                  $0
             Grant No.
             96580201
             US Army Corps IA               3/31/2010            59,249.93                 0
             of Engineers
             IA No.
             94758001
             CH2M Hill         Contract    09/30/2007            34,002.40                 0
             Contract No.
             68W60025
             Total                                           $402,445.08                  $0
            Source: OIG analysis.

            The following provides details on the funding agreements that should have been
            deobligated in FY 2011:

                	 The City of Ecorse, Michigan, grant expired on September 30, 2007, with
                   $309,192.75 remaining, and it could have been closed and deobligated.
                   Based on Office of Regional Counsel advice, Region 5 suspended the
                   award but did not deobligate the grant because there was a pending
                   investigation. Under 40 CFR § 30.72(a)(1), the closeout of an award does
                   not affect the right of EPA to disallow costs and recover funds.

                    The grant’s original project period began October 1, 2005. As early as
                    June 30, 2006, EPA found that the grantee had accomplished minimal
                    work and failed to submit progress reports for five consecutive quarters,
                    beginning with the quarter ending June 30, 2006. EPA took action to
                    prevent the recipient from drawing down funds. On October 15, 2009
                    (2 years after the project period ended), the Office of Regional Counsel
                    informed the grant specialist to wait to close the grant until further notice.
                    In its FY 2011 Assurance Letter, Attachment 3, Region 5 identified the
                    Ecorse grant as a remaining corrective action because it was still in dispute
                    and on hold by legal counsel. Based on 40 CFR § 30.62, which in part
                    refers to enforcement remedies for noncompliance with grant awards,
                    Region 5 management believes that its legal counsel’s recommendation to
                    suspend the award pending the results of the investigation warranted
                    deference. After receiving clearance from legal counsel, EPA deobligated
                    the remaining funds on July 18, 2012.

                	 The U.S Army Corps of Engineers IA expired on March 31, 2010.
                   However, it took over a year to close and deobligate the funds for this IA.
                   According to Region 10’s Grants and Interagency Agreement unit, all
                   work performed under this IA or under any associated contracts had been
                   successfully completed. On March 17, 2011, EPA’s Cincinnati Finance
                   Center indicated that the IA balance could not be reconciled due to a

13-P-0145                                                                                        6
                   discrepancy. The finance center stated that closeout of the IA should not
                   proceed until the balance was reconciled. On November 29, 2011, the IA
                   was closed and the remaining $52,458.66 was deobligated.

               	 The project period for the CH2M Hill contract ended September 30, 2007,
                  with $34,002 remaining. We did not observe any requests for closeout
                  documents or attempts to deobligate the funds until almost 4 years after
                  the project period ended. On September 26, 2011, an amendment was
                  submitted to the finance center to deobligate the remaining funds. The
                  finance center partially deobligated the funds. The previous contracting
                  officer stated that he forgot to follow up to ensure that all of the remaining
                  funds were deobligated. On February 27, 2012, the current contracting
                  officer requested the contractor’s release form and final invoices. EPA
                  received the contractor’s release form dated March 2, 2012, and final
                  closeout voucher dated March 29, 2012. The remaining funds were
                  deobligated on May 17, 2012. EPA should have requested the contractor’s
                  release sooner and followed up when only a portion of the funds was
                  deobligated.

Closeout Difficulties Were Not Elevated for Effective Resolution
            Region 5 staff did not always take appropriate action to ensure that expired
            projects were deobligated. We were told that our sample included unusual
            circumstances or anomalies. During the course of our audit, Region 5 issued an
            e-mail to its staff members which reminded them of the grant and contract
            closeout procedures and instructed them to elevate closeout issues to the
            appropriate manager for assistance. Because the Agency has deobligated the
            funds for the grant, IA, and contract mentioned in this chapter and has instructed
            Region 5 staff to elevate closeout documentation issues to its managers,
            Region 5’s actions have addressed the issues in this chapter. Therefore, we have
            no further recommendations.




13-P-0145                                                                                        7
                                            Chapter 3

       Overall Closeout Goals Met But Documentation 

               Delayed Certain Deobligations 

                  Overall, Region 5 is meeting Agency grant closeout goals. Of the judgmental
                  sample of 27 obligations reviewed during the audit, Region 5 did not take action
                  to close out 1 grant and 2 contracts because documentation needed to close out the
                  obligations had not been received. A recipient did not timely respond to
                  documentation requests and staff did not elevate the issues to management. Grants
                  should be closed when all administrative action and work is done. Contract
                  closeout occurs when there is evidence of final payment and physical completion.
                  When funds on expired projects are not deobligated, those funds cannot be
                  redirected to other environmental projects.

Federal Regulations Encourage Timely Closeouts
                  As discussed in 40 CFR § 31.50, a federal agency is to close out a grant award
                  “when it determines that all applicable administrative actions and all required
                  work of the grant has been completed.” It also states that within 90 days after the
                  expiration or termination of the grant, the grantee must submit all required
                  financial, performance, and other reports.

                  Likewise, Federal Acquisition Regulation Subpart 4.804 states that contract
                  closeout occurs upon receipt of evidence of final payment and evidence of
                  physical completion. The contract task orders mentioned in this chapter are
                  indefinite delivery, indefinite quantity contracts and cost-plus-fixed-fee
                  contracts.1 To allow for completion of indirect cost rate audits, the regulation
                  states that contracts should be closed within 36 months of the month in which the
                  contracting officer receives evidence of physical completion.

EPA Did Not Always Take Action on Delayed Closeouts
                  In FY 2011, Region 5 deobligated 90 percent of the grants that closed that year.
                  Region 5 did not take action during FY 2011 to close out 1 grant and 2 contracts
                  of the 27 obligations reviewed during the audit. Region 5 was still awaiting
                  closeout documentation and allowed these projects to remain open for up to 10
                  years after project periods ended. Region 5 has since deobligated both of the

1
  An indefinite delivery, indefinite quantity contract “provides for an indefinite quantity, within stated limits, of
supplies or services during a fixed period.” In addition,”[t]he contract must require the Government to order and the
contractor to furnish at least a stated minimum quantity of supplies or services.” FAR 16.504(a)(1). “A cost-plus-
fixed-fee contract is a cost reimbursement contract that provides for payment to the contractor of a negotiated fee
that is fixed at the inception of the contract…but may be adjusted as a result of changes in the work to be performed
under the contract.” FAR 16.306(a).

13-P-0145                                                                                                          8
            contracts, but the grant remains open. Table 2 presents details of the sampled
            grant and contracts that were originally not closed out.

            Table 2: Details of sampled grant and contracts that needed closeout
                                                                Unliquidated
                                               Project period                   Amount as of
               Project name           Type                      amount as of
                                                 end date                        July 2012
                                                                 09/30/2011
             Town of Scott,         Grant         10/31/2010       $35,600.00        $35,600.00
             Grant No.
             XP00E27701
             Weston TO #3           Contract      09/30/2006       108,097.72                  0
             Contract No.
             GS10F0117
             Ecology and            Contract      12/17/2000       473,278.06                  0
             Environment
             Contract No.
             68W60011
             Total                                                $616,975.78        $35,600.00
            Source: OIG analysis.

            The following provides details on the grant and contracts that were not closed out
            because required documents were not available:

                	 The Town of Scott grant project period ended on October 31, 2010, at
                   which time Region 5 should have initiated closeout procedures. During
                   FY 2011 and 2012, Region 5 communicated several times with the grantee
                   to request documents to officially close the grant. The project officer
                   stated that the grantee stopped communicating with them and no longer
                   answered phone calls which made it difficult to close out and deobligate
                   any remaining funds. EPA extended the grant until July 31, 2012, and the
                   grantee has until November 1, 2012, to submit invoices to support eligible
                   costs.

                	 The Weston contract should have been closed out and funds deobligated
                   since the project period ended September 30, 2006, over 6 years ago. A
                   review of the contracting officer files showed no project activity or
                   requests for closeout documents for more than 4 years. The project officer
                   had retired and the Agency could not locate the project officer’s file. The
                   Agency stated that the release of claims (required for closeout) was
                   received and the task order was deobligated on October 4, 2011. EPA
                   should have started the closeout process and obtained the release of claims
                   when the project period ended.

                	 The Ecology and Environment contract project period ended
                   December 17, 2000, with $473,278.06 remaining, and closeout procedures
                   should have been initiated at that time. The contracting officer indicated
                   that these were oil cleanup funds. According to Region 5, the contracting
                   manager made the decision not to deobligate the funds because she felt

13-P-0145                                                                                      9
                   that it was better to hold onto the Oil Spill Reimbursable Authority funds
                   to pay the final invoice. In March and April 2012, EPA made final
                   payment to the contractor which resulted in a $0 available balance and
                   closed the contract.

Required Closeout Documents Were Not Obtained and Funds Could
Not Be Deobligated
            For the samples under review, projects were not closed out timely because
            required closeout documentation was not obtained. Region 5 has a procedure for
            elevating concerns about obtaining closeout documentation for grants. Region 5’s
            process calls for sending a letter requesting closeout documentation when the
            grant expires and additional letters when requested documentation is not received.
            This process was not followed for the Town of Scott project. On September 11,
            2012, Region 5 sent an e-mail to its grants specialists reminding them of the
            region’s closeout procedures and that they should timely elevate issues when
            there are delays in obtaining necessary closeout documents.

            In the case of the Weston contract, there was no evidence that documentation
            needed to close out the contract was requested for 4 years. Promptly elevating
            closeout delays to management may have resolved the delays more efficiently. On
            September 21, 2012, Region 5 management sent an e-mail to contracting staff
            reminding them of the procedures for closing contracts and stating that if there are
            concerns, they should be elevated. Region 5’s corrective action addresses the
            issues relating to the closeout of contracts.

Recommendation
            We recommend that the Regional Administrator, Region 5:

               1.	 Close out the Town of Scott grant and deobligate any funds remaining
                   after the required documents are obtained.

Agency Comments and OIG Evaluation
            Region 5 took action to address the recommendation. EPA disbursed the remaining
            funds to the recipient on November 5, 2012, and closed the grant. EPA’s actions
            addressed the recommendation.




13-P-0145                                                                                    10
                                  Chapter 4

      Recipients Can Take Many Years to Use Funds
            Grant and IA recipient delays in starting projects and requesting reimbursement
            create the appearance that funds are not needed. EPA policy defines inactive
            obligations as those in which there has been no activity for six months (180 days)
            or more. In our sample, three of 27 obligations were inactive even though the
            performance period for the grant or IA had not expired. Some of the obligations
            have been inactive for more than 4 years. When funds are not used, the Agency’s
            anticipated environmental outcomes are delayed or may become unattainable.

Inactive Means No Activity for 6 Months or More
            EPA Policy Number 2520-03 defines inactive obligations as those in which there
            has been no activity for 6 months (180 days) or more.

            For grants, EPA Order 5700.6 A2 CHG 2, Policy on Compliance, Review and
            Monitoring, states that during programmatic baseline monitoring, areas to be
            reviewed may include “whether expended and remaining funds are reasonable.”

            EPA has taken some action to address the issue of the lack of drawdowns in
            recent years:

               	 EPA developed a timely payment term and condition to address grant
                  recipients that have a history of accumulating ULOs without adequate
                  justification. This term and condition may help reduce grant ULOs in the
                  future.

               	 EPA’s Office of Wastewater Management issued the Management Plan
                  for the Timely Award and Completion of Special Appropriations Act
                  Project Grants, effective October 1, 2011, to facilitate the timely award
                  and completion of congressional earmark grants. According to the
                  guidance, recipients with no financial activity for 5 months must submit a
                  written explanation of the reason for the inactivity.

               	 The purpose of the EPA’s Grants Policy Issuance 12-06, Timely
                  Obligation, Award and Expenditure of EPA Grant Funds, effective
                  October 1, 2012, is to ensure the timely obligation, award, and expenditure
                  of EPA grant funds. The policy states that regional program offices may
                  not approve grants where it is anticipated that drawdown of a substantial
                  portion of federal funds will be delayed until the end of the project period,
                  without the approval of the responsible National Program Manager.


13-P-0145                                                                                   11
                    EPA’s recent actions may help to prevent lack of drawdowns in the future,
                    but extra attention by EPA staff will still be required.

Obligations Can Linger for Years With No Drawdowns
            A few Region 5 grants were open for years with no drawdowns. In 3 of 27
            obligations reviewed, we found that recipients of two grants and an IA had not
            drawn down funds for about 4 years (table 3). EPA told us that funds were still
            needed for each of these cases.

            Table 3: Details of sampled grants and IA not drawing down funds
                                                      Unliquidated
              Project                                                 Amount as of
                            Type      Award Date         amount
               name                                                   August 2012
                                                     as of 9/30/2011
            Rockford        Grant        03/18/2008       $1,700,000       $1,501,829
            Grant No.
            BF00E45801
            Ohio EPA        Grant        12/21/2008        2,106,925        2,106,925
            Grant No.
            XP00E59101
            Indian Health   IA            9/27/2007          81,400            12,173
            Service
            IA No.
            94817901
            Total                                         $3,888,325       $3,620,927
            Source: OIG analysis.

            The following describes grants and an IA with long periods of inactivity from
            Table 3 above:

                	 Since the Rockford Brownfield grant was awarded 4 years ago, there was
                   one drawdown in July 2012. After the initial project period expired
                   January 31, 2011, with no activity, Region 5 increased the initial award
                   amount by $500,000. According to Region 5 staff, under this type of grant
                   funds are not disbursed until after the loan review process is completed
                   and eligible costs are incurred. The project officer explained that delays
                   occurred after Chicago lost its 2016 Olympics bid and slated projects fell
                   through. The project officer also stated that EPA and the state have
                   reviewed the cleanup plans and ground breaking is expected to start in
                   May 2012. Despite assurances that this project is now on track toward
                   completion, when funds remain idle it appears that they are not needed.

                	 The Ohio Environmental Protection Agency has not drawn down any
                   funds since the original award on December 21, 2008. During a 2010 on-
                   site review, Region 5 found that while the Ohio Environmental Protection
                   Agency had conducted work, there were no requests for payment.
                   Region 5 recommended that the Ohio Environmental Protection Agency
                   submit requests for payments semiannually. EPA files did not include a
                   response from the Ohio Environmental Protection Agency to the report

13-P-0145                                                                                     12
                   issued in March 2011. Region 5 staff explained that special appropriations
                   grants present challenges.

               	 Region 5 did not take effective action when the Indian Health Service did
                  not draw down funds for more than 4 years after the project period began
                  October 1, 2007. The Indian Health Service did not draw down funds from
                  October 10, 2007, to January 26, 2012. The project period for this IA
                  expired at the end of 2010. It was amended June 1, 2011, to provide more
                  time and the project period was extended until December 31, 2011.

ULO Database Reports Could Be Improved
            Region 5 was required to review over 3,000 lines of ULOs in the FY 2011 ULO
            tool. The ULO tool does not highlight grants, IAs, and contracts which are
            inactive and have had no activity for 180 days. EPA began to use the ULO tool
            during FY 2011, and it was the first time such an extensive review of obligations
            was required. Previously, ULO reviews only included obligations inactive for 180
            days or more. Management explained that it did not seem efficient to review
            every obligation and that it was easier to make mistakes than it was in the past.

            We believe that obligations which have had no activity for long periods of time
            need to be distinguished from other obligations so that there is more attention on
            the older ULOs. If the ULO tool reports would highlight the older obligations, it
            would focus management’s attention on these obligations. Even though Agency
            policy states that an obligation is considered inactive after 180 days, Region 5
            expressed concern that given the nature of the two loan programs (Brownfields
            and State Revolving Loan programs), a longer “no activity trigger” may be
            appropriate. At 180 days, it is likely that all the grants would trigger greater
            attention, thus diverting management attention from other instances where actual
            problems may exist.

Recommendations
            We recommend that the Chief Financial Officer:

               2. 	 Revise the ULO desktop tool to separately identify obligations that have
                    been inactive for 180 days or more.

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               3. 	 Assess the effectiveness of the Office of Water practice of requiring
                    written explanations from recipients when funds are not drawn for
                    5 months and whether it should be applied to other types of financial
                    agreements.


13-P-0145                                                                                      13
Agency Comments and OIG Evaluation
            EPA agreed with both recommendations. By January 31, 2013, OCFO will restore
            the functionality of the ULO desktop tool that highlights obligations that have
            been inactive for 180 days. The Office of Grants and Debarment will review the
            effectiveness of the Office of Water’s practice of requiring written explanations
            from recipients to determine whether the practice should be expanded to other
            assistance agreements and interagency agreements. Based on the results of the
            review, a recommendation will be made to the Grants Management Council.
            Based on the council’s response to the recommendation, the Office of Grants and
            Debarment will make the necessary changes to its policies effective
            October 1, 2013. The Agency actions, when implemented, should address the
            recommendations.




13-P-0145                                                                                 14
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                            Planned
Rec.      Page                                                                                             Completion   Claimed    Agreed-To
No.        No.                         Subject                        Status1       Action Official           Date      Amount      Amount

    1      10      Close out the Town of Scott grant and                C       Regional Administrator,    11/05/2012
                   deobligate any funds remaining after the                           Region 5
                   required documents are obtained.
    2      13      Revise the ULO desktop tool to separately            O       Chief Financial Officer    01/31/2013
                   identify obligations that have been inactive for
                   180 days or more.
    3      13      Assess the effectiveness of Office of Water          O       Office of Administration   10/01/2013
                   practice of requiring written explanations from                   and Resources
                   recipients when funds are not drawn for 5                          Management
                   months and whether it should be applied to
                   other types of financial agreements.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U= recommendation is unresolved with resolution efforts in progress




13-P-0145                                                                                                                                  15
                                                                                   Appendix A

                  Agency Comments to Draft Report
                                        January 09, 2013

MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report No. OA-FY12-0306
               New Procedures Aided Region 5 in Reducing Unliquidated Obligations

FROM:          Susan Hedman
               Regional Administrator

TO:            Melissa M. Heist
               Assistant Inspector General for Audit

Thank you for the opportunity to respond to the recommendations in the audit report titled, “New
Procedures Aided Region 5 in Reducing Unliquidated Obligations.” As requested in the
December 12, 2012 transmission from OIG, Region 5 worked with Office of the Chief Financial
Officer and the Office of Administration and Resources Management on this response. This
memorandum summarizes the Agency’s position on each of the three report recommendations.

AGENCY’S OVERALL POSITION

As you will see below in the chart, the Agency agrees with the three recommendations. Region
5 has completed the corrective action suggested in recommendation 1. Corrective actions for
recommendations 2 and 3 are in progress.

AGENCY’S RESPONSE TO SPECIFIC REPORT RECOMMENDATIONS

Number      Recommendation                    Intended Corrective                Estimated Completion
                                              Action(s)                          & Contacts
       1    Close out the Town of Scott       The Las Vegas Finance Center       Completed
            grant and deobligate any funds    made final payment of the
            remaining after the required      remaining funds on November        Contact: Sharon Green,
            documents are obtained.           5, 2012 and has financially        Region 5 GMO (312)
                                              closed this grant.                 353-5661
       2    Revise the ULO desktop tool to    OCFO disabled this function in     The planned completion
            separately identify obligations   the FY 2012 ULO Desktop            date for this corrective
            that have been inactive for 180   Tool due to issues with the        action is January 31,
            days or more.                     data migration of the “last        2013.
                                              action date.” OCFO will
                                              restore the functionality of the   Contact: Adam Fett,
                                              ULO Desktop Tool that              Program Analyst, OFM



13-P-0145                                                                                     16
                                                highlights obligations that have   (202) 564-5314
                                                been inactive for 180 days.
       3    Assess the effectiveness of the     OGD will review this practice      OGD will obtain
            Office of Water’s practice of       and evaluate whether the           feedback from the EPA
            requiring written explanations      Agency should expand the           grants/IA management
            from recipients when funds are      practice to other assistance       community and make a
            not drawn for 5 months and          agreements and to interagency      recommendation to the
            whether it should be applied to     agreements.                        Grants Management
            other types of financial                                               Council (GMC) at the
            agreements.                                                            2013 summer meeting.
                                                                                   If the GMC determines
                                                                                   that this practice should
                                                                                   be expanded to other
                                                                                   programs, OGD will
                                                                                   make necessary changes
                                                                                   to existing ULO review
                                                                                   policies and develop
                                                                                   implementing terms and
                                                                                   conditions that will go
                                                                                   onto effect October 1,
                                                                                   2013.

                                                                                   Contacts: Jennifer
                                                                                   Hublar, OARM OGD
                                                                                   (202) 564-5294

We appreciate the efforts of the audit team and the team’s responsiveness to our comments on
initial discussion drafts of this report. If you have any questions regarding this response, please
contact Dale Meyer, Region 5 Comptroller at (312) 886-7561 or Eric Levy, Region 5 Audit
Coordinator at (312) 353-3611.

cc:    Janet Kasper                   Barbara Freggens
       Bharat Mathur                  Sandy Dickens
       Cheryl Newton                  Stefan Silzer
       Cyndy Colantoni                Jeanne Conklin
       Nanci Gelb                     Adam Fett
       Sandy Womack                   Dale Meyer
       Howard Corcoran                Betty White
       Jennifer Hublar                Patricia Bamford
       Maryann Froehlich              Sharon Green
       Cheryl Varkalis                Eric Levy




13-P-0145                                                                                         17
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Regional Administrator, Region 5
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Director, Office of Regional Operations
Deputy Regional Administrator, Region 5
Assistant Regional Administrator, Region 5
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Grants and Debarment
Audit Follow-Up Coordinator, Region 5




13-P-0145                                                                                18
